               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Oshkosh, WI Processing and
     Distribution Facility Consolidation


                      Audit Report




                                              July 29, 2011

Report Number NO-AR-11-006
                                                                              July 29, 2011

                                               Oshkosh, WI Processing and Distribution
                                                                Facility Consolidation

                                                           Report Number NO-AR-11-006



   IMPACT ON:
Mail processing operations in the Lakeland      Lakeland District manager, with input from
District in the Great Lakes Area.               the senior plant manager re-evaluate
                                                capacity in the Green Bay Processing and
WHY THE OIG DID THE AUDIT:                      Distribution Center to determine if sufficient
We performed this review as a result of a       work floor and dock space is available; and
congressional request on the consolidation      reassess machine capacity, especially with
of mail processing operations from              regards to the flat volumes.
Oshkosh, WI Processing and Distribution
Facility (P&DF) into the Green Bay, WI          WHAT MANAGEMENT SAID:
Processing and Distribution Center (P&DC).      Management agreed with both
The objectives were to determine whether a      recommendations, saying they will re-
business case exists to support the             evaluate the workroom floor space/layout
consolidation and to assess compliance          and dock space and reassess letter and flat
with established area mail processing           processing machine capacity at the Green
(AMP) guidelines.                               Bay P&DC. However, they disagreed with
                                                the logic used in our analysis of floor space
WHAT THE OIG FOUND:                             needs, asserting the analysis was too high
Although the consolidation would result in      level. Also, management did not feel there
cost savings, adequate facility and machine     is an issue with the letter processing
capacity does not exist at the Green Bay        capacity, and felt the equipment set was
P&DC to process the additional mail             sufficient.
volume and service could be negatively
impacted. Our analysis also indicated that:     AUDITOR’S COMMENT:
(1) No career employees will lose their jobs    We believe our methodology of
at either location although there may be        benchmarking with sites that process
some reassignments; (2) Oshkosh P&DF is         similar mail volumes and using data from
more efficient and processes its mail           management to make projections for
volumes at a lower cost than Green Bay          minimum space needs provides a
P&DC; (3) Mail processing cost savings          reasonable basis to assess floor space
were overestimated, but significant savings     requirements. We agree with
still should be achieved; and (4) Some AMP      management’s comments that changes
guidelines were not followed, but had no        made to the proposed equipment set
impact on the business case.                    should address the letter processing
                                                capacity shortfall, but flat processing
WHAT THE OIG RECOMMENDED:                       capacity could remain challenging.
We recommend the vice president,
Operations, Great Lakes Area, and               Link to review the entire report
July 29, 2011

MEMORANDUM FOR:           JO ANN FEINDT
                          VICE PRESIDENT, OPERATIONS GREAT LAKES AREA

                          CHARLES J. MILLER
                          ACTING DISTRICT MANAGER, LAKELAND DISTRICT

                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Draft Audit Report – Oshkosh, WI Processing and
                          Distribution Facility Consolidation
                          (Report Number NO-AR-11-006)

This report presents the results of our audit of the Oshkosh, WI Processing and
Distribution Facility (P&DF) consolidation into the Green Bay, WI Processing and
Distribution Center (P&DC) (Project Number 11XG024NO000). The report responds to
a congressional request. Our objectives were to determine whether a business case
exists to support the consolidation and assess compliance with established area mail
processing (AMP) guidelines.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    David E. Williams, Jr.
    Frank Neri
    Karen E. Schenck
    Steven E. Wenzel
    Corporate Audit and Response Management
                                                TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Capacity .......................................................................................................................... 1

Customer Service ............................................................................................................ 6

Employee Impact .......................................................................................................... 10

Efficiency ....................................................................................................................... 11

Cost Savings ................................................................................................................. 12

AMP Guidelines ............................................................................................................ 13

Recommendations ........................................................................................................ 15

Management’s Comments ............................................................................................ 16

Evaluation of Management’s Comments ....................................................................... 16

Appendix A: Additional Information ............................................................................... 17

   Background ............................................................................................................... 17

   Objectives, Scope, and Methodology ........................................................................ 19

   Prior Audit Coverage ................................................................................................. 20

Appendix B: Management’s Comments ........................................................................ 22
Oshkosh, WI Processing and                                                                         NO-AR-11-006
Distribution Facility Consolidation



Introduction

This report presents the results of our audit of the Oshkosh, WI Processing and
Distribution Facility (P&DF) mail consolidation into the Green Bay, WI Processing and
Distribution (P&DC) (Project Number 11XG024NO000). The report responds to a
congressional request. Our objectives were to determine whether a business case
exists to support the consolidation and assess compliance with established AMP
policies and guidelines. The audit addresses operational risk. See Appendix A for
additional information about this audit.

Conclusion

Although the consolidation would result in cost savings, adequate facility and machine
capacity does not exist as of June 2011 at the Green Bay P&DC to process the
additional mail volume and service could be negatively impacted. Our analysis also
indicated that:

   No career employees will lose their jobs at either location, although there may be
    some reassignments.

   Oshkosh P&DF is more efficient and processes its mail volumes at a lower cost than
    Green Bay P&DC.

   Mail processing cost savings were overestimated, but significant savings still should
    be achieved. 1

   Some AMP policies and guidelines were not followed, but had no impact on the
    business case.

Capacity

As of June 2011, we concluded that adequate facility and machine capacity does not
exist at the Green Bay P&DC to process all mail volumes coming from the Oshkosh
P&DF.

   Floor Space. The Green Bay P&DC will not have sufficient floor space to
    accommodate the additional equipment and staging areas needed to process the
    additional mail volume. The Green Bay P&DC has 107,000 square feet of interior
    floor space, whereas our calculations show they need at least 147,000 square feet
    (see Chart 1).



1
 First year savings were estimated by the Postal Service to be $2,094,773 as compared to the OIG savings estimate
of $668,919. Total annual savings estimated by the Postal Service were $4,654,584 as compared to the OIG savings
estimated at $3,477,469.
                                                          1
Oshkosh, WI Processing and                                                                                NO-AR-11-006
Distribution Facility Consolidation




                               Chart 1: Interior Square Footage Shortage
                                            Green Bay P&DC


          Current Interior Workfloor Space                                                             107,000
          Minimum Floor Space Requirements
          (Additional Mail Processing Equipment,
          Staging Areas, and Aisles)                                                                    40,075

          Required Interior Workfloor Space                                                            147,075
          Available Floor Space (carrier annex
          relocation)                                                                                   13,000

          Workfloor Capacity Shortfall                                                                (27,075)

            A comparison to other facilities shows that this shortfall estimate is conservative
            and additional space may be required. For example, the average square footage
            for facilities with similar mail volumes is 269,000 square feet, indicating that the
            Green Bay P&DC would need an additional 162,000 square feet in work space to
            process its mail volumes. 2 See Chart 2.

              Chart 2: Green Bay P&DC and Facilities with Similar Mail Volumes
                                  Interior Square Footage




2
     This comparison to facilities with similar volumes serves as a high end estimate for floor space requirements since
    the majority of these facilities have experience significant mail declines resulting in excess work space. See our
    report on the Assessment of Overall Efficiency 2011 (Report Number NO-MA-11-004), May 20, 2011.


                                                             2
Oshkosh, WI Processing and                                                                            NO-AR-11-006
Distribution Facility Consolidation


   Dock Capacity. The Green Bay P&DC does not have adequate dock door capacity
    for the morning delivery point sequence (DPS) 3 dispatches to the stations. We
    estimate they need at a minimum of 25 dock doors. The Green Bay P&DC has 22
    dock doors, resulting in a shortage of three dock doors. This estimate may be
    conservative based on a comparison to facilities with similar mail volume that have
    an average of 37 dock doors. Insufficient dock doors could result in delays of
    morning dispatches.

    Additionally, some of the Green Bay P&DC docks have trailers parked at them and
    are used to store empty equipment and Standard Mail® before dispatch. If the
    consolidation is implemented, these dock doors will be needed for dispatches.
    Consequently, this empty equipment would need to be stored in an already crowded
    plant that would further reduce work space (see Illustrations 1 and 2).

Illustration 1: Empty Mail Equipment Stored in a Trailer on the Dock at the Green
Bay P&DC.




Source: OIG Photograph taken on March 15, 2011




3
 DPS provides the Postal Service with a more cost efficient way of preparing the carrier's mail into delivery sequence
using automated processing equipment.


                                                          3
Oshkosh, WI Processing and                                                                         NO-AR-11-006
Distribution Facility Consolidation




          Illustration 2: Standard Mail Stored in Trailer on Dock at Green Bay P&DC.




Source: OIG Photograph taken on March 17, 2011

      Machine Capacity. The Green Bay P&DC will not have sufficient machine capacity
       to process all the combined letter volume on the Delivery Barcode Input Output Sub
       System (DIOSS). 4 The machine capacity shortfall on the DIOSS will occur in
       outgoing primary letter processing. As of June 2011, the two DIOSS machines (one
       at Oshkosh P&DF and one at Green Bay P&DC) process a combined daily volume
       of approximately 165,000 outgoing primary letters. The proposed consolidation plans
       to process the combined volume on one DIOSS in Green Bay P&DC. Approximately
       117,000 pieces have to be processed in 4 hours (6 to 10 p.m.) to meet the outgoing
       clearance time.

       However, the maximum capacity on the machine is only 90,000 letter pieces over
       that period. Therefore, the outgoing processing on the DIOSS will not meet the daily
       outgoing clearance time of 10 p.m. without adjusting schedules to start the DPS
       processing later. This will have a negative ripple effect as a late clearance time will
       impact the machine availability for DPS letter mail (see Chart 3) for DIOSS capacity
       shortfall.




4
    A delivery barcode sorter with the additional capability of spraying barcodes on mailpieces.


                                                             4
Oshkosh, WI Processing and                                                          NO-AR-11-006
Distribution Facility Consolidation


                         Chart 3: DIOSS Machine Capacity Shortfall
                               For Outgoing Primary Letters

                       Average Combined Daily Volume
                       (Feb 2011 Web End of Run)                  165,177
                       Percentage Volume After 6 p.m.                 71%
                       Projected Volume After 6 p.m.              117,440
                       Maximum Capacity (Pieces)                   90,000
                       Outgoing Clearance Time                     10 p.m.
                       Actual Clearance Time (Without
                       Pull-Ddown Time)                        11:15 p.m.

   Although the AMP study did not call for adding an additional DIOSS, we discussed
   our concerns with local management. Management agreed to bring an additional
   DIOSS kit from Oshkosh P&DF to Green Bay P&DC to address this shortfall.

   More significantly, the Green Bay P&DC will experience a shortfall in flats
   processing capacity following the consolidation. Specifically, Green Bay P&DC will
   not be able to process more than 15 million, or 23 percent, of the annual combined
   flat volumes on one Automated Flats Sorting Machine 100 (AFSM 100). This
   shortfall will occur with carrier route volumes. As of June 2011, two AFSM 100
   machines (one at Oshkosh P&DF and one at Green Bay P&DC) are used to carrier
   route these flats. According to the AMP study, the combined volume will be
   processed on one machine. The AMP study did not call for moving an additional
   AFSM 100 into Green Bay P&DC. Furthermore, Green Bay P&DC does not have
   sufficient floor space to accommodate an additional AFSM 100.

   We concluded that one AFSM 100 will not maintain the current carrier route level for
   both plants, resulting in the shortfall in capacity. This shortfall will result in additional
   manual processing costs at the delivery units estimated cost of approximately
   $320,000 per year (see Chart 4).

                          Chart 4: AFSM Machine Capacity Shortfall
                                    For Carrier Route Flats
                                Cost Impact to Delivery Units

Maximum Machine Capacity (Pieces)                                          101,250
Combined Daily Carrier Route Processed (Pieces)                            132,235
Shortfall (Pieces)                                                        (30,985)
Maximum Available Processing Time (Hours)                                     6.75
AFSM Decision Analysis Report Target Throughput                             15,000
Estimated Annual Cost to the Delivery Units (310 days)                  ($320,551)




                                               5
Oshkosh, WI Processing and                                                                                NO-AR-11-006
Distribution Facility Consolidation




According to the AMP study, plans are to process carrier route Standard Mail volumes
for the Green Bay P&DC and Oshkosh P&DF on AFSMs at the Milwaukee P&DC to
help alleviate the shortfall with flat capacity. However, the Milwaukee P&DC delayed flat
volume increased from 33 percent in FY 2010 to 47 percent in FY 2011 through May 15.
Therefore, a significant risk of mail delays and increases in overtime hours may be
encountered by processing mail in Milwaukee P&DC.

Customer Service

We reviewed three measures of customer service: the External First-Class
measurement system (EXFC), 5 the Customer Experience Measurement System
(CEMS), 6 and the projected service standard upgrades and downgrades. 7 Our review
indicated customer service may be adversely impacted based on historical performance
especially for overnight and 3-day scores.

   In FY 2010 through Quarter 2 FY 2011, Oshkosh P&DC outperformed Green Bay
    P&DC in the cumulative overnight EXFC service for the last six postal quarters. The
    cumulative service performance through Quarter 2 FY 2011 is 96.72 percent for
    Oshkosh P&DF and 95.81 percent for Green Bay P&DC (see Chart 5).




5
  The EXFC is “a system whereby a contractor performs independent service performance tests on certain types of
First-Class Mail “that is, (letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides
national, area, performance cluster, and city estimates, which are compared with USPS service goals. The results are
released to the public quarterly by the consumer advocate.” Small Plant Best Practices Guidelines (Handbook PO-
420), November 1999, Appendix D, Page 40
6
  Customer Experience Measurement provides an end-to-end approach to assessing experience with the Postal
Service from the customers’ perspective, including quality of service received
7
  Service standards are stated delivery performance goals for each mail class and product that are usually measured
in days for the period of time taken by USPS to handle the mail from end-to-end (that is, from the point of entry into
the mail stream to delivery to the final destination). Upgrades to the service standards after a consolidation indicates
end to end mail handling occurs in less time than the current established standard. Downgrades to the service
standards after a consolidation indicate end to end mail handling occurs in more time than the current established
standard.


                                                            6
Oshkosh, WI Processing and                                                 NO-AR-11-006
Distribution Facility Consolidation


                        Chart 5: Oshkosh P&DF vs. Green Bay P&DC
                              Overnight EXFC Service Scores
                                 FY 2010 – Quarter 2 FY 2011

                               National Goal = 96.65%




      The Green Bay P&DC performed better than Oshkosh P&DF in the 2 and 3 day
       service scores. For 2-day service standards, Green Bay P&DC was consistently
       above the national goal of 94.18 percent, while Oshkosh P&DF was below the
       national goal 5 of the 6 postal quarters. For 3-day service standards, both
       Oshkosh P&DF and Green Bay P&DC were below the national goal of 92.85
       percent (see Charts 6 and 7). If the consolidation occurs, increased management
       attention will be necessary in some categories to improve service and meet
       national service goals.




                                                        7
Oshkosh, WI Processing and                                                 NO-AR-11-006
Distribution Facility Consolidation


                     Chart 6: Oshkosh P&DF versus Green Bay P&DC
                               2-Day EXFC Service Scores
                               FY 2010 – Quarter 2 FY 2011




                                                  National Goal = 94.18%




                     Chart 7: Oshkosh P&DF versus Green Bay P&DC
                               3 Day EXFC Service Scores
                               FY 2010 – Quarter 2 FY 2011




                                          8
Oshkosh, WI Processing and                                                                            NO-AR-11-006
Distribution Facility Consolidation


The CEMS residential scores 8 for the Oshkosh P&DF and Green Bay P&DC fluctuated
over the five quarters reviewed but trended gradually upwards. Oshkosh P&DF trended
slightly higher than Green Bay P&DC, but the scores were comparable (see Chart 8).


                      Chart 8: Quarter 2 FY 2010 through Quarter 2 FY 2011
                         Customer Experience Measurement Program




The AMP study identifies a net of 247 downgrades that will impact customer service.
Specifically:

     There are 118 downgrades in First-Class Mail®. However only one of these
      downgrades is in overnight service. These downgrades impact approximately 1.8
      percent of average daily volume or 28,000 mailpieces per day.

     There is one downgrade in Priority Mail® service and 142 net service downgrades in
      Periodicals.




8
    CEM residential scores measure the experience with the Postal Service from a residential customers’ perspective.



                                                           9
Oshkosh, WI Processing and                                                                         NO-AR-11-006
Distribution Facility Consolidation


Chart 9 shows the number of service standard changes by class of mail.

                 Chart 9: Impact on Service Standards on All Mail Classes

                                                      Volume and
                                                      Percent of
                                              Net     Mail Volume
               Mail Class Upgrades Downgrades Change Affected
               First-Class                                1,594,670 /
                                 0        118   (118)
               Mail                                              1.79
               Priority
                                 0          1     (1)    16,275 / .18
               Mail
               Periodicals      11        153   (142)            N/A 9
               Standard
                                 9          1       8             N/A
               Mail
               Package
                                 6          0       6   23,665 / 1.56
               Services
                                                          1,634,611 /
               Total            26        273   (247)
                                                                 1.76

The projected implementation timeframe for this consolidation is July through
September 30, 2011. This is during the fall mailing season, 10 which is followed by the
Christmas mailing season. This period has historically been the busiest time of the year
for the U.S. Postal Service. 11 Nationally delayed mail volumes have increased from 5
percent in the first quarter of FY 2010 to 7 percent in the first quarter of FY 2011.
Implementing a consolidation during this period will increase the risk of mail delays and
adversely impact customer service.

Finally, the last pick up from the collection boxes at Oshkosh P&DF would be changed
from 8:00 to 6:30 p.m. and the closing time for the business mail entry unit (BMEU)
would change from 6:00 to 5 p.m. to meet service standards. However, operating times
for the retail unit at the Oshkosh P&DF would not change. The BMEU and the retail unit
will remain at the Oshkosh P&DF until it is sold.

Employee Impact

The consolidation of the Oshkosh P&DF into the Green Bay P&DC will have an impact
on employees.




9
  Periodicals and Standard Mail downgrades do not show any service standard impact on mail volume because this
volume is not captured in the Originating-Destinating Information System (ODIS). ODIS does not sample these
pieces and estimates from various systems have shown this volume to be less than 1 percent of total volume entered
at that facility.
10
   The fall mailing season runs from mid-August through Thanksgiving.
11
   Mail volume increased 10 percent in Quarter 1 of FY 2009 and 13 percent in Quarter 1 of FY 2010.


                                                        10
Oshkosh, WI Processing and                                                        NO-AR-11-006
Distribution Facility Consolidation


Specifically:

      There will be a reduction of 138 full-time equivalent (FTE) craft positions and 10
       Executive and Administrative Schedule (EAS) positions at Oshkosh P&DF.

      The Green Bay P&DC will gain 86 FTE craft positions and 8 EAS positions.

      The consolidation would result in a net decrease of 52 FTE craft positions and 2
       EAS positions. However, there are currently 97 employees eligible to retire 12 at the
       Oshkosh P&DF and Green Bay P&DC. With the number of employees already
       eligible for retirement, the number of positions impacted by a consolidation could be
       significantly minimized.

Efficiency

The Oshkosh P&DF is more efficient and processes its mail volumes at a lower cost
than Green Bay P&DC. For example, in FY 2010, the Oshkosh P&DF’s First Handling
Pieces (FHP) productivity was 1,479 pieces per workhour as compared with the Green
Bay P&DC’s productivity of 1,219 pieces per workhour. Even though both facilities
improved FHP productivity for FY 2011, 13 with Oshkosh P&DF’s FHP productivity of
1,622 and Green Bay P&DC’s FHP productivity of 1,359, Oshkosh P&DF was still more
efficient.

When compared to similar sized facilities, Oshkosh P&DF achieved productivity levels
above the average for their respective group, while Green Bay P&DC was below the
average. For example, the Oshkosh P&DF’s FHP productivity of 1,479 was above the
average of 1,258 pieces per workhour, while Green Bay P&DC’s FHP productivity of
1,219 was below the average of 1,222 pieces per workhour.

Mail processing costs at the Oshkosh P&DF are also lower than the Green Bay P&DC.
The cost to process 1,000 mailpieces at Oshkosh P&DF is $54.44 while the cost is
$62.98 for Green Bay P&DC see Chart 10.




12
     Employees eligible to retire as of March 29, 2011.
13
     FY 2011 is through May 15, 2011.


                                                          11
Oshkosh, WI Processing and                                                   NO-AR-11-006
Distribution Facility Consolidation




                             Chart 10: FY 2010 Productivity Costs




Cost Savings

Cost savings will primarily be the result of workhour reductions. The Postal Service
estimated the annual cost savings from the consolidation to be approximately $4.7
million taking into account workhours, maintenance, transportation, and equipment
costs. However, U.S. Postal Service Office of Inspector General (OIG) estimated annual
cost savings of $3.5 million from the consolidation. This difference is due to the Postal
Service using a higher efficiency achievement percentage when calculating the
projected increase in productivity and not including some employee relocation costs.
Chart 11 provides a breakdown and comparison of cost savings in the first year.




                                              12
Oshkosh, WI Processing and                                                                     NO-AR-11-006
Distribution Facility Consolidation




                    Chart 11: Cost Savings Breakdown and Comparison

                                                               AMP              OIG Analysis
                  Savings/Cost                                Study
                  Mail Processing Craft                     $1,732,700           $875,696
                  Workhour Savings
                  Non-Mail                                    239,900             239,900
                  Processing/Management +
                  Shared Labor Distribution
                  Codes Workhours Savings
                  (Less Maintenance and
                  Transportation)
                  Management 14 Workhour                      602,191             602,191
                  Savings
                  Transportation Costs                       (171,781)           (171,781)
                  Maintenance Savings                        2,351,574           2,351,574
                  Space Costs                                (100,000)           (100,000)
                  Additional Cost of                             0               (320,111)
                  Workhours Needed to
                  Process Flats at Delivery
                  Units
                  Total Annual Savings                       4,654,584            3,477,469
                  Total One-Time Costs                      (2,559,881)          (2,808,550)
                  Total First Year Savings                  $2,094,773            $668,919
                    Note: Red numbers in the chart mean a cost.

AMP Guidelines

The Postal Service complied with stakeholder communication policies; however, some
procedures in the AMP guidelines were not followed. Specifically:

      Business rule criteria for AMP studies assume a 5-percent increase in Total Piece
       Handling 15 productivity. However, this AMP study used 10-percent increase in its
       calculations. As a result, mail processing workhours and projected cost savings were
       overstated by approximately $857,000.

      Employee relocation costs of $494,200 were not included for some employees.

           o The Postal Service estimates for relocation costs at $5,000 per craft
             employee. At most, 19 mail handler craft employees could be relocated and
             entitled to relocation costs totaling $95,000.


14
     EAS.
15
     Total Piece Handling is first handling pieces plus subsequent handlings.


                                                            13
Oshkosh, WI Processing and                                                                           NO-AR-11-006
Distribution Facility Consolidation


        o The Postal Service estimates for relocation costs of $49,900 per EAS
          employee. The AMP study includes eight EAS employees who could be
          relocated and entitled to relocation costs totaling $399,200.

    Some of the AMP study steps were not completed within established timeframes.
     Not meeting these timeframes did not adversely affect the consolidation
     determination process. See Chart 12 for a timeline of events.

                                  Chart 12: AMP Timeline of Events

                                                                                  Accomplished
                                                            Was Step                 Within
Event                                       Date          Accomplished             Timeframe?
                                                               ?
Area vice president (AVP)               7/31/2010             Yes                        Yes
notified district manager or
district manager notified AVP of
intent to conduct study.
Stakeholders notified on the             8/2/2010                Yes 16                  Yes
intent to conduct study.
District manager completed              9/11/2010                 Yes                   No (1)
feasibility study and submitted to
AVP within 2 months of
notification to conduct study.
District manager held public            11/23/2010                Yes                   No (2)
input meeting within 45 days
after study submitted to AVP.
District manager summarized              2/1/2011                 Yes                   No (3)
information from public meeting
and written comments within 15
days after meeting.
AVP and headquarters vice               2/28/2011                 Yes                   No (4)
president reviewed the feasibility
study within 60 days from the
time the study is submitted to the
AVP.
AVP approved study after                3/21/2011                 Yes                    Yes
finalized worksheets were
approved by area and
headquarters and submitted
study to senior vice president
(SVP), Operations.
SVP approved study within 2              4/4/2011                 Yes                   No (5)
weeks of receipt from AVP.
     (1) 8 days late.
     (2) 7 days late.
     (3) 2 months late (11/23/2010).
     (4) 5 months late (9/11/2010 -2/28/2011).
     (5) 1 month late.
16
  Two hundred and forty-two stakeholders were notified of intent to conduct AMP feasibility study on August 2, 2010.
The same 242 stakeholders were notified on November 8, 2010, of the intent to conduct the public input meeting.


                                                         14
Oshkosh, WI Processing and                                                   NO-AR-11-006
Distribution Facility Consolidation




Recommendations

We recommend the vice president, Operations, Great Lakes Area, and Lakeland District
manager:

1. Re-evaluate the capacity in Green Bay Processing and Distribution Center to
   determine whether sufficient work floor and dock space is available.

2. Reassess machine capacity, especially with regards to the flat volumes.

Management’s Comments

Management agreed with recommendation 1, stating they will re-evaluate the workroom
floor space/layout and dock space to ensure maximum efficiency is achieved in the
future state of operation at the Green Bay P&DC. However, they disagreed with the
logic used in our analysis of floor space needs, asserting the analysis was too high
level.

Management agreed with recommendation 2, stating they will reassess letter and flat
processing machine capacity at the Green Bay P&DC. While management agreed flat
processing would be a challenge with only one AFSM 100, they reiterated they will have
contingency plans in place for high volume periods. Management did not feel there is an
issue with the letter processing capacity, stating that 16 DBCSs will support automated
letter processing services. See Appendix B for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.

We believe our methodology of benchmarking with sites that process similar mail
volumes allows for a reasonable basis to assess floor space requirements. Additionally,
our minimum work floor capacity shortfall calculation, as shown in the report, was
calculated using data provided by the Postal Service as to existing available space and
minimum required space for the addition of equipment as outlined in the AMP package.
While we acknowledge that management can be innovative with regards to floor space
utilization and may be successful with accommodating the additional mail volumes, our
work highlights that work space is a challenge and needs to be re-examined.

We discussed the issue of the additional DIOSS with management during the audit; as
a result of this discussion, they agreed to move the DIOSS in Oshkosh P&DF to Green
Bay P&DC. This change to the initial equipment set outlined in the AMP proposal was
included in the report and should address the letter processing shortfall. Both the OIG
and management agreed that flat processing will be a challenge. Management has


                                           15
Oshkosh, WI Processing and                                                     NO-AR-11-006
Distribution Facility Consolidation


provided assurances that they are aware of the reported shortfall and will have
contingency plans in place to address this shortfall during periods of high flat volumes.




                                            16
Oshkosh, WI Processing and                                                                     NO-AR-11-006
Distribution Facility Consolidation




                               Appendix A: Additional Information

Background

The financial outlook of the Postal Service is in question as it ended the second quarter
of this fiscal year (January 1 – March 31, 2011) with a net loss of $2.2 billion, compared
to a net loss of $1.6 billion for the same period in FY 2010. Mailing Services revenue of
$14.0 billion decreased $568 million, or 3.9 percent, in the second quarter of 2011,
compared to the same period a year ago. Mailing Services volume of 40.7 billion pieces
represents a 3.1 percent decline from the same period a year earlier. The modest
increase in revenue from Standard Mail did not offset the loss of revenue from the
reduced volume of First-Class Mail.

Despite workhour reductions and organizational redesign initiatives projected in FY
2011 to save $1.2 billion to $1.6 billion, the slow economic growth, electronic
alternatives, rising fuel prices, have continued to cause record losses, creating a cash
shortfall. Postal Service is expected to reach its statutory borrowing limit by the end of
the fiscal year. 17

In testimony before Congress, 18 the U.S. Government Accountability Office (GAO)
stated action is urgently needed to facilitate the Postal Service’s financial viability as it
cannot support its current level of service and operations. Congress, the Postal Service,
the administration, and stakeholders need to reach agreement on a package of actions
to restore the Postal Service’s financial viability and take steps to modernize and
restructure it. The Postal Service needs to become a leaner, more flexible organization,
so that it can operate more efficiently, control costs, keep rates affordable, and meet
customers’ changing needs. Postal Service operations, networks, and workforce need
to be realigned with the changes in mail usage and customer behavior, as the Postal
Service now has costly excess capacity.

Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal Service “. . .shall provide
prompt, reliable, and efficient services to patrons in all areas.” Further, the September
2005 Postal Service Strategic Transformation Plan states, “The Postal Service will
continue to provide timely, reliable delivery to every address at reasonable rates.” The
Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated December 20,
2006, highlights “. . . the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services. . . .”

This audit report responds to a request from Congressman Thomas E. Petri, who
represents the 8th District of Wisconsin, to independently review the consolidation of


17
  Postal News Release, May 10, 2011. www.usps.com/communications/newsroom/2011/pr11_048.
18
  GAO-11-428T, Testimony before the Subcommittee on Federal Workforce, U.S. Postal Service and Labor Policy,
Committee on Oversight and Government Reform, House of Representatives, dated March 2, 2011.


                                                     17
Oshkosh, WI Processing and                                                                   NO-AR-11-006
Distribution Facility Consolidation


mail processing operations from the Oshkosh P&DF into the Green Bay P&DC. The
representative’s concerns included whether:

    Adequate communication was provided to all stakeholders.
    Costs of consolidation were considered.

    AMP guidelines were followed.

This AMP is the third in a series of AMP studies for Oshkosh P&DF and Green Bay
P&DC.

Specifically:
    December 1, 2005, an AMP study was started to move only the outgoing mail
     operations from Oshkosh P&DF to Green Bay P&DC. However, on July 18, 2007,
     this study was ended, because no significant savings identified by consolidating only
     the outgoing mail.
    September 2, 2009, an AMP study was started to move only the outgoing mail
     operations from Green Bay P&DC to Oshkosh P&DF. However, on August 2, 2010,
     because of Postal Service budget concerns and the downturn in economy this AMP
     study was stopped to consider a more effective plan.

    August 2, 2010, an AMP study was started to move all mail operations from
     Oshkosh P&DF to Green Bay P&DC. Moving mail operations into Green Bay
     P&DC was chosen primarily due to physical location. This AMP study was approved
     on April 4, 2011.

This consolidation would move all of the Oshkosh P&DF’s mail processing operations to
the Green Bay P&DC. 19 According to AMP study, approximately 291 million originating
and destinating mailpieces would be transferred to the Green Bay P&DC for processing.
The Oshkosh P&DF and the Green Bay P&DC are 55 miles apart and are in the
Lakeland District in the Great Lakes Area (see Map 1).




19
  Oshkosh P&DF (2005) and Green Bay P&DC (2008) send their outgoing mail to Milwaukee P&DC for processing
on Saturdays.




                                                    18
Oshkosh, WI Processing and                                                                                   NO-AR-11-006
Distribution Facility Consolidation


              Map 1: Districts Within the Postal Service Great Lakes Area




                                             Lakeland

                                                                               Greater
                                                530 - 532, 534                 Michigan
                                                - 535, 537 -                   486 - 491,
                                                539, 541 -                     493 - 499
                                                545, 549, 600,
                                                602, 610-611
                                                                  Chicago                    Detroit
                                                                   606 - 608                480 - 485, 492




                                              Central Illinois          Greater
                                                601, 603 - 605,
                                                609, 613 - 617          Indiana
                                                                          460 - 469,
                                                                          472 - 475,
                                                                          478 - 479
                                           Gateway
                                      618- 620, 622- 631,
                                      633 - 635, 650 - 653




Objectives, Scope, and Methodology

Our audit objectives were to determine whether a business case exists to support the
consolidation of the mail processing operations from the Oshkosh P&DF into the Green
Bay P&DC and whether AMP guidelines were followed. We reviewed data from July 1,
2009, to June 30, 2010, to analyze current and potential efficiencies for both plants as
well as capacity at the Green Bay P&DC. Additionally, we reviewed service scores from
Quarter 1, FY 2010 through Quarter 2, FY 2011. We also estimated the costs and
savings from this analysis. We conducted observations at both sites during March and
April 2011 and interviewed Postal Service management and employees.

We used computer-processed data from the following systems.

   Activity Based Costing System.
   Customer Experience Measurement System.
   Electronic Facilities Management System.
   Enterprise Data Warehouse.
   Web Complement Information System.
   Web End of Run.

We conducted this performance audit from February through July 2011 in accordance
with generally accepted government auditing standards and included such tests of


                                                                  19
       Oshkosh, WI Processing and                                                               NO-AR-11-006
       Distribution Facility Consolidation


      internal controls as we considered necessary under the circumstances. Those
      standards require that we plan and perform the audit to obtain sufficient, appropriate
      evidence to provide a reasonable basis for our findings and conclusions based on our
      audit objectives. We believe that the evidence obtained provides a reasonable basis for
      our findings and conclusions based on our audit objectives. We discussed our
      observations and conclusions with management on May 17, 2011, and included their
      comments where appropriate.

      We assessed the reliability of computer-generated data by interviewing agency officials
      knowledgeable about the data. We determined that the data were sufficiently reliable for
      the purposes of this report.

      Prior Audit Coverage

                                               Final
                            Report            Report          Monetary
   Report Title             Number             Date            Impact             Report Results
Area Mail                 EN-AR-09-001       2/4/2009             N/A        Postal Service management
Processing                                                                   agreed with our
Communication                                                                recommendation to add
                                                                             employee input notifications
                                                                             but disagreed with the
                                                                             recommendation to explore
                                                                             additional communication
                                                                             channels.
Canton Processing         NO-AR-09-011       9/22/2009            N/A        No recommendations were
and Distribution                                                             made.
Facility Outgoing
Mail Processing
Operation
Consolidation
New Castle                NO-AR-10-002       2/1/2010             N/A        No recommendations were
Processing and                                                               made.
Distribution Facility
Outgoing Mail
Processing
Operation
Consolidation
Manasota                 EN-AR-10-003        2/12/2010            N/A        Management agreed with our
Processing and                                                               recommendations.
Distribution Center
Lakeland Processing      EN-AR-10-004        2/12/2010            N/A        No recommendations were
and Distribution                                                             made.
Center
Consolidation
Dallas Processing        NO-AR-10-003        2/24/2010        $114,000,000   Management agreed with
and Distribution                                                             monetary impact and the
Center Outgoing                                                              recommendations.
Mail Consolidation



                                                         20
       Oshkosh, WI Processing and                                                                 NO-AR-11-006
       Distribution Facility Consolidation



Consolidation of the     NO-AR-10-007         7/2/2010             N/A        Management agreed with the
Lima P&DF Mail                                                                recommendations.
Operations Into the
Toledo P&DC
Charlottesville          NO-AR-10-008         8/3/2010             N/A        No recommendations were
Processing and                                                                made.
Distribution Facility
Consolidation
Wilkes-Barre, PA         NO-AR-11-001        10/4/2010             N/A        No recommendations were
Processing and                                                                made.
Distribution Facility
Consolidation
Marysville, CA           NO-AR-11-002        11/23/2010            N/A        No recommendations were
Processing and                                                                made.
Distribution Facility
Consolidation
Houston Processing       NO-AR-11-004        12/14/2010        $189,744,682   Management agreed with the
and Distribution                                                              recommendations.
Center
Consolidation
Columbus, GA             NO-AR-11-005        2/14/2011             N/A        No recommendations were
Customer Service                                                              made.
Mail Processing
Center Originating
Mail Consolidation
Lima, OH to Toledo,      EN-AR-11-004        3/31/2011          $105,125      Management agreed with the
OH Area Mail                                                                  recommendations.
Processing
Consolidation
Assessment of            NO-MA-11-004        5/17/2011         $647,586,823   Management agreed they could
Overall Plant                                                                 improve operational efficiency
Efficiency 2011                                                               by reducing more than 14
                                                                              million workhours by the end of
                                                                              FY 2013. This would allow the
                                                                              Postal Service to achieve at
                                                                              least median productivity levels
                                                                              in the network and avoid costs
                                                                              of more than $647.5 million
                                                                              based on workhour savings for
                                                                              1 year.




                                                          21
Oshkosh, WI Processing and                                      NO-AR-11-006
Distribution Facility Consolidation


                            Appendix B: Management’s Comments




                                           22
Oshkosh, WI Processing and                 NO-AR-11-006
Distribution Facility Consolidation




                                      23
Oshkosh, WI Processing and                 NO-AR-11-006
Distribution Facility Consolidation




                                      24
